April 22, 2021
Via Electronic Filing
Mr. Scott Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

C.H. Robinson Worldwide, Inc. v. Allen Miller, No: 20-1425

Dear Mr. Harris,
I represent respondent Allen Miller in the above-referenced case. On April 8, 2021, a
petition for certiorari was docketed in this case, and on April 19, the Court requested that
respondent file a response to the petition. Unless extended by the Court, the response would be
due on May 19, 2021.
Pursuant to Rule 30.4, respondent requests a 30-day extension of time to file a brief in
opposition, to and including June 18, 2021. The extension is needed because of counsel’s preexisting commitments and deadlines, including an upcoming jury trial, and to allow sufficient time
to prepare a response that adequately addresses the points raised in the petition.
Thank you for time and attention to this matter.
Sincerely,
_____________________________
Rena M. Leizerman
Counsel for Respondent
cc:

Kannon K. Shanmugam, Counsel for Petitioner
(via electronic mail)

